IN THE

Supreme Court of the United States
No. 19-508
—————
AMG CAPITAL MANAGEMENT, LLC, ET AL.,
PETITIONERS

v.
FEDERAL TRADE COMMISSION
—————
To the Honorable Elena Kagan, Circuit Justice for the United States Court
of Appeals for the Ninth Circuit:
APPLICATION FOR LEAVE TO EXCEED WORD LIMITS
The Federal Trade Commission respectfully requests leave to file its
brief on the merits in excess of the word limit set forth in Supreme Court
Rule 33.1(g)(vi), not to exceed 15,500 words, with a corresponding increase
in the reply brief, not to exceed 7,150 words.
1. On July 9, 2020, the Court granted the petition for certiorari in this
case along with the Commission’s petition in No. 19-825, Federal Trade
Commission v. Credit Bureau Center, LLC, presenting substantially the
same question. The Court consolidated the two cases and allotted a total of
one hour for oral argument.
2. The following month, the Court granted the parties’ joint motion to
realign the parties and extend the briefing schedule. In accordance with
that schedule, the petitioners in AMG and the respondents in Credit
Bureau Center filed their opening briefs on September 25, 2020. Together,
the opening briefs totaled 25,216 words on the common issue. Amici filed
eight briefs supporting the arguments made in the opening briefs.
3. On November 2, 2020, the Court deconsolidated the cases and
vacated the order granting certiorari in Credit Bureau Center.
4. To provide the Court with a full presentation of its arguments, the
Commission respectfully requests to file in AMG a brief on the merits in
excess of the Court’s ordinary word count, not to exceed 15,500 words.
Counsel for AMG does not object to the Commission’s request for an
increased word count.

5. Counsel for AMG has authorized the Commission to respectfully
request that, insofar as the Commission is granted additional words for its
responsive brief, AMG be afforded a corresponding increase in the number
of words for its reply brief, not to exceed 7,150 words. The Commission
does not object to that request.
Accordingly, the Commission respectfully requests to adjust the word
limits as described above.
Respectfully submitted,
ALDEN F. ABBOTT
General Counsel
Counsel of Record
JOEL MARCUS
Deputy General Counsel for Litigation
MICHAEL BERGMAN
THEODORE (JACK) METZLER
MATTHEW M. HOFFMAN
Attorneys
FEDERAL TRADE COMMISSION
600 Pennsylvania Ave. NW
Washington, D.C. 20580
(202) 326-2505
aabbott@ftc.gov
November 12, 2020

2

